TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Inadequate Security Controls Over Routers
                      and Switches Jeopardize Sensitive
                            Taxpayer Information



                                          March 26, 2008

                              Reference Number: 2008-20-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 26, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Inadequate Security Controls Over Routers and
                             Switches Jeopardize Sensitive Taxpayer Information
                             (Audit # 200720027)

 This report represents the results of our review to determine whether controls were sufficient to
 detect and deter unauthorized use of Internal Revenue Service (IRS) routers and switches, two
 key components used to direct network traffic. This review was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2007 Annual Audit Plan and was part of
 the Information Systems Programs business unit’s statutory requirements to annually review the
 adequacy and security of IRS technology.

 Impact on the Taxpayer
 Because the IRS sends sensitive taxpayer and administrative information across its networks,
 routers on the networks must have sufficient security controls to deter and detect unauthorized
 use. Access controls for IRS routers were not adequate, and reviews to monitor security
 configuration changes were not conducted to identify inappropriate use. A disgruntled
 employee, contractor, or hacker could reconfigure routers and switches to disrupt computer
 operations and steal taxpayer information in a number of ways, including diverting information
 to unauthorized systems.

 Synopsis
 The IRS Enterprise Networks organization is responsible for installing, operating, and
 maintaining routers and switches for a majority of the IRS. Within the Enterprise Networks
 organization, the Network Management Control Center serves as the Program Management
 Office and central support center for the IRS network environment throughout the United States.
                         Inadequate Security Controls Over Routers and Switches
                               Jeopardize Sensitive Taxpayer Information



Its responsibilities include authorizing and authenticating persons accessing routers and switches,
monitoring activity on the network, and ensuring that routers are properly configured.
The IRS uses the Terminal Access Controller Access Control System (TACACS+) to administer
and configure routers and switches. Users of the TACACS+ must be authorized by managers.
The IRS had authorized 374 accounts for employees and contractors that could be used to access
routers and switches to perform system administration duties. Of these, 141 (38 percent) did not
have proper authorization to access the TACACS+. Authorizations for 86 of the 141 employee
and contractor accounts had been provided on some prior date, but the authorizations had expired
at the time of our review. However, we could not find that the other 55 employee and contractor
accounts had ever been authorized to access the System. We are particularly concerned that
27 of the 55 employees and contractors had accessed the routers and switches to change security
configurations.
To authenticate users, the TACACS+ uses a security application that requires users to enter an
account name and password. System administrators had circumvented this control by setting up
34 unauthorized accounts that appear to be shared-user accounts. Any person who knew the
passwords to these accounts could change configurations without accountability and with little
chance of detection. For this reason, the IRS requires that shared accounts be used only on a
limited basis and that they be subjected to special authorization controls. However, during Fiscal
Year 2007, 4.4 million (more than 84 percent) of the 5.2 million accesses to the TACACS+ were
made by the 34 user accounts. None of the accounts were properly authorized.
In addition, the review of audit trails1 is necessary to detect potential security events such as
hacking attempts, virus or worm infections, and attempts to change or alter information. The
Modernization and Information Technology Services organization Cybersecurity office has the
responsibility to review audit trail information from the TACACS+, routers, and switches at least
weekly. In addition, the Cybersecurity office must review audit trail logs after any security
incident. Analysis of audit trail events can also allow the administrators and the Network
Management Control Center to identify nonstandard configurations that could lead to security
vulnerabilities or disruptions to operations.
Audit trail log reviews were not being conducted by the Cybersecurity office, and only a limited
percentage of the audit trails for the IRS routers and switches were being reviewed. In addition,
system administrators were not following IRS procedures that require an authoritative, IRS-wide
time server for the purpose of synchronizing the system clocks of IRS systems. Correct time
zone settings are critical during audit trail reviews for detecting inappropriate traffic across the



1
  An audit trail is a chronological record of activities that allows for the reconstruction, review, and examination of a
transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to computer
systems.
                                                                                                                        2
                     Inadequate Security Controls Over Routers and Switches
                           Jeopardize Sensitive Taxpayer Information



IRS network and for establishing a timeline in case of a multifaceted attack on the IRS network.
The time of attack can also be critical evidence in criminal proceedings.

Recommendations
We recommended the Chief Information Officer clarify responsibilities for reconciling user
accounts on the TACACS+ with the system used by the IRS to authorize employee access,
improve the testing of authentication controls on the TACACS+ to identify any configuration
weaknesses, ensure that the TACACS+ is configured to prevent employees and contractors from
gaining access to the routers and switches if they have not used the System within 90 calendar
days, and eliminate unnecessary shared accounts and ensure that each account is properly
authorized. In addition, the Chief Information Officer should ensure that the Enterprise
Networks organization provides the audit trails for the TACACS+, routers, and switches to the
Cybersecurity office for periodic reviews; audit trail information is filtered for effective analysis;
and all routers and switches are configured to the same time zone.

Response
IRS management agreed with six of our recommendations and is evaluating implementation of
the seventh. The IRS will begin monthly reconciliation of the TACACS+ user accounts with the
system used to authorize employee access, implement testing of the authentication controls on
the TACACS+, ensure that employee user accounts are locked after 45 calendar days of
inactivity and removed after 90 calendar days of inactivity, and ensure that no unauthorized or
unnecessary shared accounts exist on the TACACS+. In addition, audit log information will
continue to be filtered in accordance with router and switch guidance, and the Enterprise
Networks organization will ensure that the Cybersecurity organization has access to all audit log
information for review and analysis. The IRS will evaluate our recommendation to configure all
routers and switches to the same time zone to determine whether this approach is an appropriate
enterprise solution. We will follow up on the adequacy of these corrective actions in future
audits. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                     3
                            Inadequate Security Controls Over Routers and Switches
                                  Jeopardize Sensitive Taxpayer Information




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Access Controls Over Router and Switch Administration Were
          Not Effective to Control Unauthorized Use..................................................Page 3
                    Recommendations 1 and 2: ................................................Page 4

                    Recommendations 3 and 4: ................................................Page 5

          Audit Trails Are Not Being Reviewed to Identify Questionable
          Activity .........................................................................................................Page 5
                    Recommendations 5 through 7:...........................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
          Inadequate Security Controls Over Routers and Switches
                Jeopardize Sensitive Taxpayer Information




                      Abbreviations

IRS             Internal Revenue Service
TACACS+         Terminal Access Controller Access Control System
                        Inadequate Security Controls Over Routers and Switches
                              Jeopardize Sensitive Taxpayer Information




                                             Background

Every Internal Revenue Service (IRS) site, whether it is a Computing Center,1 campus,2 or small
field office, has a local area network interconnecting computers at the site and providing access
to the other IRS networks nationwide. IRS data networks rely on thousands of routers and data
switches to ensure data traffic is routed and managed effectively.
Routers are devices that determine the proper path for data to travel between different networks.
They connect networks and can also direct traffic to the Internet. Routers are now available in
many types, although all are fundamentally doing the same job. A modern router is essentially a
small network computer with an operating system, a memory, and a small processor that does all
of the work in a router. The main manufacturer of commercial-scale routers is Cisco.
In a network of any real complexity, routers will not send data directly to the destination.
Instead, information will pass through a series of routers, each getting information one step
closer to the destination, until it reaches the router that connects to the final destination. The
term “switch” is often used interchangeably with router, but a switch is really a network hub with
switched ports that might or might not also perform additional routing functions.
Because the IRS sends sensitive taxpayer and administrative information across its networks,
routers must have sufficient security controls to deter and detect unauthorized use. Disgruntled
employees, contractors, and hackers who gain access to routers could steal sensitive information
and cause denials of service leading to lost productivity. A hacker accessing a poorly configured
router could gain full control of the IRS network. For example, an unscrupulous person could
divert data traffic through a third-party system on its way to the intended destination.
Denials of service can also be costly for organizations. For example, on January 23, 2001,
Microsoft’s web sites could not be accessed for nearly 23 hours. The next day, Microsoft
attributed the failure to a configuration change to the routers on its network. In 2007, an article
by Netcordia3 stated that Gartner4 estimated the average hourly cost of network downtime to be
$42,000. The average company suffered 87 hours of network downtime annually, equaling
$3.65 million in lost revenue.



1
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
2
  IRS campuses receive, process, and archive paper and electronic tax and information returns; issue taxpayer
notices; process refunds; answer taxpayers’ tax law/account inquiries; and provide taxpayers with postfiling services
related to collection and examination cases.
3
  Network Downtime, the Configuration Errors, Netcordia Whitepapers, 2007.
4
  Gartner, Inc. is a leading information technology research and advisory company.
                                                                                                             Page 1
                       Inadequate Security Controls Over Routers and Switches
                             Jeopardize Sensitive Taxpayer Information



The IRS Enterprise Networks organization is responsible for installing, operating, and
maintaining routers and switches5 for a majority of the IRS. Within the Enterprise Networks
organization, the Network Management Control Center serves as the Program Management
Office and central support center for the IRS network environment throughout the United States.
Its responsibilities include authorizing and authenticating persons accessing routers and switches,
monitoring activity on the network, and ensuring that routers are properly configured.
This review was performed at the IRS offices in New Carrollton, Maryland, within the Enterprise
Networks organization during the period January through November 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 The IRS Criminal Investigation Division, Office of Chief Counsel, Office of Appeals, and Statistics of Income
organization manage routers and switches for their own networks.
                                                                                                          Page 2
                       Inadequate Security Controls Over Routers and Switches
                             Jeopardize Sensitive Taxpayer Information




                                    Results of Review

Access Controls Over Router and Switch Administration Were Not
Effective to Control Unauthorized Use
Authorizing and authenticating access to routers and switches are critical for deterring
unauthorized use. Fundamentally, managers must ensure that only those people who have a
legitimate business need can gain access to the devices. The IRS created the Online 5081
system6 in June 2002 to authorize employees and contractors to access its computer systems,
including routers and switches. It uses the Terminal Access Controller Access Control System
(TACACS+) to authenticate users on routers and switches. This System uses a security
application that requires users to enter an account name and password before gaining access.
At the time of our review, the IRS had authorized 374 accounts for employees and contractors
that could be used to access routers and switches to perform system administration duties. Of
these, 141 (38 percent) did not have proper authorization to access the TACACS+.
Authorizations for 86 of the 141 employee and contractor accounts had been provided on some
prior date, but the authorizations had expired at the time of our review. However, we could not
find that the other 55 employee and contractor accounts had ever been authorized to access the
System. We are particularly concerned that 27 of the 55 employees and contractors had accessed
the routers and switches to change security configurations.
We also identified weaknesses in the TACACS+ controls used to authenticate users. Nine
accounts were still active, although the employees and contractors had not accessed the System
for more than 90 calendar days. The System should have been configured to automatically
prevent these users from accessing the routers and switches after 90 calendar days. In addition,
the system administrators circumvented authentication controls by setting up 34 unauthorized
accounts that appear to be shared-user accounts. Any person who knew the passwords to these
accounts could change configurations without accountability and with little chance of detection.
For this reason, the IRS requires that shared accounts be used only on a limited basis and that
they be subjected to special authorization controls. However, during Fiscal Year 2007,
4.4 million (more than 84 percent) of the 5.2 million accesses to the TACACS+ were made by
the 34 unauthorized user accounts. None of the accounts were properly authorized.




6
  The Online 5081 system was named after the Information System User Registration/Change Request (Form 5081)
the IRS uses to request and authorize user accounts for employees on all systems. The Online 5081 system
automates some of the manual processes and provides a centralized system for all system access authorizations.
                                                                                                       Page 3
                    Inadequate Security Controls Over Routers and Switches
                          Jeopardize Sensitive Taxpayer Information



We are very concerned that authorization and authentication controls are weak on devices as
sensitive as routers and switches. A disgruntled employee, contractor, or hacker could
reconfigure routers and switches to disrupt computer operations and steal taxpayer information in
a number of ways, including diverting information to unauthorized systems. The Treasury
Inspector General for Tax Administration is continuing to review security whether configuration
changes were appropriate and warranted.
IRS managers of router and switch administrators did not carry out their responsibilities for
authorizing access to only those employees and contractors who needed it to carry out their
responsibilities. Neither the managers nor the staff at the Network Management Control Center
reconciled the Online 5081 system information with TACACS+ user accounts as required. This
reconciliation would have found a majority of the weaknesses we identified. None of the IRS
managers we contacted stated they were responsible for administering router accounts once they
forwarded authorizations to the Network Management Control Center. They stated they believed
the administration of the router and switch user accounts was solely the responsibility of others.
TACACS+ administrators were able to make configuration changes to bypass the authentication
controls and set up shared accounts due to a lack of oversight by their managers and the Network
Management Control Center. Periodic testing of the routers and switches was insufficient to
identify these weaknesses.

Recommendations
The Chief Information Officer should:
Recommendation 1: Clarify responsibilities for reconciling user accounts on the TACACS+
with the Online 5081 system and ensure that the reconciliations are conducted routinely. The
results from the reconciliations should be used to ensure that only authorized employees and
contractors can access the TACACS+.
       Management’s Response: IRS management agreed with this recommendation.
       The Network Management Control Center will begin monthly reconciliation of the
       TACACS+ with the Online 5081 system and delete any TACACS+ accounts without an
       associated Online 5081 system authorization.
Recommendation 2: Improve the testing of authentication controls on the TACACS+ to
identify any configuration weaknesses.
       Management’s Response: IRS management agreed with this recommendation. The
       Enterprise Networks organization will run monthly tests of authentication controls,
       including the control to ensure that the system locks accounts after three failed attempts.




                                                                                           Page 4
                         Inadequate Security Controls Over Routers and Switches
                               Jeopardize Sensitive Taxpayer Information



Recommendation 3: Ensure that the TACACS+ is configured to prevent employees and
contractors from gaining access to the routers and switches if they have not used the System
within 90 calendar days.
         Management’s Response: IRS management agreed with this recommendation. The
         Network Management Control Center will ensure TACACS+ accounts are locked after
         45 calendar days of inactivity and removed from the System after 90 calendar days of
         inactivity.
Recommendation 4: Eliminate unnecessary shared accounts on the TACACS+ and ensure
that the remaining accounts are properly authorized and limited.
         Management’s Response: IRS management agreed with this recommendation. The
         Enterprise Networks organization will ensure that no unauthorized or unnecessary shared
         accounts exist on the TACACS+ and will review the use of shared accounts monthly to
         ensure that the accounts are properly documented and authorized.

Audit Trails Are Not Being Reviewed to Identify Questionable Activity
IRS procedures provide that audit trail7 logs for all IRS systems and applications should capture,
at a minimum, the following data for each security-related event:
    •    Date and time the event occurred.
    •    Unique identifier (e.g., user name, user identification number, application name) of the
         user or application initiating the event.
    •    Type of event.
    •    Subject of the event (e.g., the user, file, or other resource affected) and the action taken
         on that subject.
    •    Outcome status (success or failure) of the event.
The review of audit trails is necessary to detect potential security events such as hacking
attempts, virus or worm infections and propagation, attempts to change or alter information, and
other threats. The Modernization and Information Technology Services organization
Cybersecurity office has the responsibility to review audit trail information from the TACACS+,
routers, and switches at least weekly. In addition, the Cybersecurity office must review audit
trail logs after any security incident. Analysis of audit trail events can also allow the



7
  An audit trail is a chronological record of activities that allows for the reconstruction, review, and examination of a
transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to computer
systems.
                                                                                                                 Page 5
                     Inadequate Security Controls Over Routers and Switches
                           Jeopardize Sensitive Taxpayer Information



administrators and the Network Management Control Center to identify nonstandard
configurations that could lead to security vulnerabilities or disruptions to operations.
For routers and switches, audit trail information is obtained from two sources. The TACACS+
records events such as password changes, failed attempts, commands entered, and configuration
changes and stores them in its database, where reports can be generated and reviewed. In
addition, the router and switch devices can generate daily logs on security events, such as
blocked information, failed logons, and attempted exploits. The data are sent to remote servers
where they are stored. The TACACS+ audit trail log reviews were not being conducted by the
Cybersecurity office, and only a limited percentage of the audit trails for the IRS routers and
switches were being reviewed.
In addition, system administrators were not following IRS procedures that require an
authoritative IRS-wide time server for the purpose of synchronizing the system clocks of IRS
systems. Correct time zone settings are critical during audit trail reviews for detecting
inappropriate traffic across the IRS network and for establishing a timeline in case of a
multifaceted attack on the IRS network. The time of attack can also be critical evidence in
criminal proceedings. We reviewed 169 configuration error reports for routers and switches and
found that 15 (9 percent) did not follow these procedures.
Inaccurate audit trails and inadequate monitoring of audit trail logs increase the likelihood that
security events will not be detected and that nonstandard configurations such as the
authentication weaknesses discussed earlier will not be identified. As a result, malicious persons
could exploit vulnerabilities in the routers and switches to gain unauthorized access to sensitive
information and disrupt computer operations with little chance of detection.
We attribute the weaknesses in controls to detect unauthorized events to three main factors.
   •   Audit trail logs on IRS routers and switches are capturing excessive amounts of data.
       The routers were set at a level that logs day-to-day activities such as network session
       logs. Not all logging messages at this level are necessary for detecting inappropriate
       activity. In addition, the data maintained at this level require a substantial amount of disk
       space for storage. To conduct effective reviews of audit trail logs, organizations must
       choose the minimum level of audit trail information that is sufficient for review. When
       an excessive amount of data is captured, reviewing the data can be too cumbersome.
   •   The Cybersecurity office did not emphasize the need to receive and review the
       TACACS+ audit trail logs. The Cybersecurity office did review audit trail logs for some
       routers and switches, but not all of the logs were being forwarded to it by the Enterprise
       Networks organization.
   •   Configurations on routers and switches were not monitored to ensure that time zone
       settings met IRS standards. The tool used by the IRS to test routers and switches was not
       configured to track time zone settings.

                                                                                             Page 6
                    Inadequate Security Controls Over Routers and Switches
                          Jeopardize Sensitive Taxpayer Information



Recommendations
The Chief Information Officer should:
Recommendation 5: Use available filtering techniques to limit the amount of audit trail
information necessary for detecting inappropriate activity.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS filters audit trail data in accordance with current guidance. The Enterprise Networks
       organization will coordinate with the Cybersecurity office to evaluate other filtering
       techniques to determine the benefit to its enterprise environment.
Recommendation 6: Ensure that the Enterprise Networks organization provides the audit
trails for the TACACS+, routers, and switches to the Cybersecurity office for review and
analysis.
       Management’s Response: IRS management agreed with this recommendation. The
       Enterprise Networks organization will provide the Cybersecurity office access to the
       TACACS+ audit logs and ensure that all audit log information is available for review and
       analysis.
Recommendation 7: Ensure that all routers and switches are configured to the same time
zone. The use of one time zone across the entire nation would facilitate the tracking of network
activity and eliminate potential confusion due to different time zones and daylight savings time.
Also, time zone setting configurations should be included in testing scripts (programs) to ensure
that they are set accurately.
       Management’s Response: IRS management agreed with this approach. However,
       the Enterprise Networks organization believes such an undertaking presents several
       complexities. The Enterprise Networks organization is evaluating the recommendation to
       configure all routers and switches to the same time zone to determine whether this
       approach is an appropriate enterprise solution and will document the results of the study.




                                                                                           Page 7
                    Inadequate Security Controls Over Routers and Switches
                          Jeopardize Sensitive Taxpayer Information



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether controls were sufficient to detect
and deter unauthorized use of IRS routers and switches, two key components used to direct
network traffic. To accomplish this objective, we:
I.     Determined whether IRS guidelines, standards, and procedures are consistent with those
       from the National Institute of Standards and Technology and the Department of the
       Treasury and with industry standard practices.
II.    Evaluated authorization and authentication controls for IRS routers and switches on the
       internal network.
       A. Determined whether all TACACS+ users had been properly authorized for access.
       B. Determined whether TACACS+ users needed access to carry out their
          responsibilities.
       C. Evaluated the managerial review process to ensure that all user accounts were
          necessary.
       D. Determined whether each system administrator had his or her own unique account
          and password for access to routers and switches.
       E. Determined whether passwords for user accounts met IRS standards.
III.   Determined whether audit trails were created and reviewed to detect suspicious
       transactions on routers, switches, and the TACACS+.
       A. Reviewed the audit trail log settings on the TACACS+ to ensure that all appropriate
          actions were logged.
       B. Determined whether network administrators and/or the Cybersecurity office
          examined audit trail logs on a regular basis.
       C. Determined whether audit trail logs were securely stored.
IV.    Determined whether routers and switches had been configured securely.
       A. Obtained the weekly configuration error reports from February 12 to
          March 12, 2007 (5 weeks) and analyzed the testing results to ensure that all devices
          were tested and vulnerabilities were corrected.



                                                                                           Page 8
            Inadequate Security Controls Over Routers and Switches
                  Jeopardize Sensitive Taxpayer Information



B. Validated the adequacy of the configuration error reports by sampling routers and
   switches from the March 12, 2007, error report to determine whether other significant
   vulnerabilities existed and were not identified. A sample of 30 routers was
   judgmentally selected from the 111 routers identified in the March 12, 2007, error
   report. Judgmental sampling was performed for ease of use in selecting the sample.
   All 17 switches identified in the error report were reviewed.




                                                                                 Page 9
                   Inadequate Security Controls Over Routers and Switches
                         Jeopardize Sensitive Taxpayer Information



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Thomas Polsfoot, Audit Manager
Charles Ekunwe, Senior Auditor
Cari Fogle, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                     Page 10
                  Inadequate Security Controls Over Routers and Switches
                        Jeopardize Sensitive Taxpayer Information



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Program Oversight OS:CIO:SM:PO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Chief Information Officer OS:CIO




                                                                       Page 11
      Inadequate Security Controls Over Routers and Switches
            Jeopardize Sensitive Taxpayer Information



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 12
Inadequate Security Controls Over Routers and Switches
      Jeopardize Sensitive Taxpayer Information




                                                    Page 13
Inadequate Security Controls Over Routers and Switches
      Jeopardize Sensitive Taxpayer Information




                                                    Page 14
Inadequate Security Controls Over Routers and Switches
      Jeopardize Sensitive Taxpayer Information




                                                    Page 15
Inadequate Security Controls Over Routers and Switches
      Jeopardize Sensitive Taxpayer Information




                                                    Page 16
Inadequate Security Controls Over Routers and Switches
      Jeopardize Sensitive Taxpayer Information




                                                    Page 17
